BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Reply Brief for Petitioner in 19-1201, Clay
Bright, Commissioner of Tennessee Department of
Transportation v. William Harold Thomas, Jr., was
sent via Next Day Service to the U.S. Supreme Court,
and 3 copies were sent via Next Day Service and email to the following parties listed below, this 5th day
of June, 2020:
Allen Joseph Dickerson
Institute for Free Speech
1150 Connecticut Avenue, NW
Suite 801
Washington, DC 20036
(202) 301-9000
adickerson@ifs.org
Counsel for Respondent
HERBERT H. SLATERY III
Attorney General and Reporter
State of Tennessee
ANDREE S. BLUMSTEIN

Solicitor General

SARAH K. CAMPBELL

Associate Solicitor General
Counsel of Record
Office of the Attorney General
P.O. Box 20207
Nashville, TN 37202
(615) 532-6026
sarah.camp bell@ag.tn. gov
Counsel for Petitioner

1

I

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington , DC 20005

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on June 5, 2020.

Donna J. Wolf J
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~

6~

c hrtu ll.

NotaryPublic

o-DdO

/J~

[seal]
JOHN D. GALLAGHER
Notary Public, State of Ohio

My Commission Expires
February 14, 2023

,.

